                          Office of Inspector General
                          Legal Services Corporation




Inspector General
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washington, DC 20007-3558
202.295.1 660 (p) 202.337.6616 (f)
www.oig.lsc.gov



             August 11, 2011

             Ms. Rhodia Thomas
             Executive Director
             MidPenn Legal Services
             213-A North Front Street
             Harrisburg , PA 17104

             Dear Ms. Thomas:

            Enclosed is the Office of Inspector General's final report on the results of our audit on
            Selected Controls at MidPenn Legal Services . We have reviewed your response to the
            recommendations in the draft report and believe your proposed actions adequately
            address the issues. Recommendations 2, 3 and 4 are closed because corrective
            actions have already been taken.       Recommendation 1 is open until all stated
            management actions are taken and the OIG is notified of such in writing.

            Thank you and your staff for your courtesy and cooperation during this audit.

            Sincerely,

           ~ C'. 2a,_
           ~~~~schanz c:::J
            Inspector General

            Enclosure


            cc:     James Sandman , President
                    Legal Services Corporation




                                                                                       =LLSC
                                                                                       II r~rln~r
                                                                                             """,. ko,',   Fa. Equ.J JUI"CC
   LEGAL SERVICES CORPORATION
   OFFICE OF INSPECTOR GENERAL


 REPORT ON SELECTED INTERNAL
          CONTROLS




MIDPENN LEGAL SERVICES, INC
           RNO 339040


        Report No. AU-11-04
            August 2011

            www.oig.lsc.gov
                                     TABLE OF CONTENTS



INTRODUCTION ......................................................................................... 1

OBJECTIVE ................................................................................................. 1

SCOPE AND METHODOLOGY................................................................... 2

OVERALL EVALUATION ............................................................................. 3

AUDIT FINDINGS ........................................................................................ 4

       Property Records for Fixed Assets ...................................................... 4
       Recommendation 1 .............................................................................. 4
       Grantee Comments ............................................................................. 4
       OIG Evaluation of Grantee Comments ................................................ 5


       Derivative Income ............................................................................... 5
       Recommendation 2 .............................................................................. 5
       Grantee Comments ............................................................................. 6
       OIG Evaluation of Grantee Comments ................................................ 6


       Entity-Wide Disaster Recovery Plan .................................................... 6
       Recommendation 3 .............................................................................. 6
       Grantee Comments ............................................................................. 6
       OIG Evaluation of Grantee Comments ................................................ 6

       Annotating Statement and Invoices as Paid ........................................ 7
       Recommendation 4 .............................................................................. 7
       Grantee Comments ............................................................................. 7
       OIG Evaluation of Grantee Comments ................................................ 7

APPENDIX I – GRANTEE COMMENTS
                                              INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG)
assessed the adequacy of selected internal controls in place at MidPenn Legal
Services, Inc. (grantee or MPLS) related to grantee operations and oversight.
Audit work was conducted at the grantee’s main office in Harrisburg, PA and at
LSC headquarters in Washington, DC. The on-site fieldwork was conducted on
May 3 through 11 and August 30 through 31, 2010. Documents reviewed
pertained to the period January 1, 2009 through March 31, 2010.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) 1 (Accounting Guide), Chapter 3, an LSC grantee “…is
required to establish and maintain adequate accounting records and internal
control procedures.” The Accounting Guide defines internal control as follows:

         [T]he process put in place, managed and maintained by the
         recipient’s board of directors and management, which is
         designed to provide reasonable assurance of achieving the
         following objectives:

               safeguarding of assets against unauthorized use or
                disposition;
               reliability of financial information and reporting; and
               compliance with regulations and laws that have a
                direct and material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee “must rely
upon its own system of internal accounting controls and procedures to address
concerns” such as preventing defalcations and meeting the complete financial
information needs of its management.


                                                 OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal
controls in place at MidPenn Legal Services, Inc. as the controls related to
operations and oversight, including program expenditures, fiscal accountability,
and compliance with selected LSC regulations. The audit evaluated selected
financial and administrative areas and tested the related controls to ensure that
costs were adequately supported and allowed under the LSC Act and LSC
regulations. In addition, the Office of Inspector General examined regulatory
policies and grantee processes to assess whether controls were designed in a
manner expected to ensure compliance with the LSC Act and the reviewed LSC
1
 The Accounting Guide (1997 Edition) was used to evaluate all documentation and transactions reviewed for this audit.
During the course of the audit, LSC issued a revised Accounting Guide (the 2010 Edition). For all references to the
Accounting Guide (1997 Edition) contained in this report, the same requirements and information are contained in the
Accounting Guide (2010 Edition).



                                                         1
regulations. However, reaching conclusions regarding compliance with any
specific regulation was not an objective of the audit.


                        SCOPE AND METHODOLOGY

To accomplish the objective, controls over disbursements, internal management
reporting and budgeting, selected LSC regulations, and employee benefits and
reimbursements were reviewed. To obtain an understanding of the internal
controls over these areas, policies and procedures were reviewed, including
manuals, guidelines, memoranda, and directives setting forth current practices.
MPLS officials were interviewed to obtain an understanding of the internal control
framework, and management and staff were interviewed as to their knowledge
and understanding of the processes in place. Computer-generated data
provided by the grantee was relied on to determine whether entries recorded in
computer systems matched the information contained on the source documents.
However, the OIG did not test the general or application controls over the
computer system because it was not necessary to evaluate the information
system controls to answer the audit objectives.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, disbursements from a judgmentally selected sample
of employee and vendor files were reviewed. The sample consisted of 171
transactions totaling $94,037 of the over $9 million disbursed during the period
January 1, 2009 through March 31, 2010. To assess the appropriateness of
these expenditures, we reviewed invoices, vendor lists, and general ledger
details. The appropriateness of grantee expenditures was evaluated on the
basis of the grant agreements, applicable laws and regulations, and LSC policy
guidance.

To review internal controls over internal management reporting and budgeting,
the grantee’s system and processes were tested and compared to those detailed
in the Fundamental Criteria of an Accounting and Financial Reporting System
(Fundamental Criteria) contained in the Accounting Guide. Controls over
employee benefits and reimbursements were reviewed by examining the
collective bargaining agreement and other personnel policies and practices, and
by testing a judgmentally selected sample of 26 employee reimbursements as
part of the disbursements testing.

To review internal controls over compliance with specific LSC regulations
(45 CFR Parts 1610, 1612 and 1617), written compliance policies and
procedures were examined, including those based on applicable LSC mandated
recordkeeping requirements; applicable documentation and reports were
reviewed; and staff members were interviewed. This allowed the OIG to
determine if the controls were designed in a manner to ensure compliance with
the provisions of the respective LSC regulation.



                                        2
This review was limited in scope and not sufficient for expressing an opinion on
the entire system of grantee internal controls over financial operations or
compliance with LSC regulations.

This audit was conducted in accordance with generally accepted government
auditing standards. Those standards require that the audit be planned and
performed to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objectives. The OIG
believes the evidence obtained provides a reasonable basis for the findings and
conclusions based on the audit objectives.


                           OVERALL EVALUATION

Internal controls reviewed at MPLS were adequate as the controls related to
specific grantee operations and oversight, including program expenditures, fiscal
accountability, and compliance with LSC regulations. However, some controls
need to be strengthened or formalized. Controls over regulations were designed
in a manner expected to ensure compliance with the LSC Act and selected LSC
regulations.

Grantee disbursements tested were adequately supported, allowable, and
properly allocated to LSC funds. The grantee’s current practices involving
internal management reporting and budgeting were generally in accordance with
the Fundamental Criteria contained in the Accounting Guide. Internal controls
over reimbursements and employee benefits were adequate. Policies over
employee benefits practices were in writing and followed.

The following areas were noted where internal controls could be strengthened:

   -   Preparing property subsidiary records for all applicable property items,
   -   Properly recording and reporting derivative income,
   -   Completing and implementing an entity-wide disaster recovery plan, and
   -   Marking invoices and other related documentation as paid to prevent
       duplicate payments.

Internal controls over compliance with LSC regulations (45 CFR Parts 1610,
1612 and 1617), were adequately designed. Written compliance policies and
procedures, including those based on applicable recordkeeping requirements
were in accordance with the respective LSC regulation.




                                        3
                                 AUDIT FINDINGS

1.     Property Records for Fixed Assets

Although the Fiscal and the Information Technology Departments maintained
inventory records, the listings were not reconciled with each other, and neither
one contained all the relevant information as recommended by LSC's
Fundamental Criteria.       Moreover, MPLS did not maintain comprehensive
property records for fixed assets purchased or received through donation.

The Accounting Guide (1997 Edition), Chapter 3, Section 3-5, Fundamental
Criteria, requires that assets be recorded in a property subsidiary record, which
includes the following specific recordkeeping information-–date acquired,
description of the property including model and serial number, the check number,
the original cost (if purchased), the fair value (if donated), the method of valuation
(if donated), salvage value (if any), funding source, estimated life, depreciation
method, identification number, and location. That is ten key elements if
purchased and twelve if received through donation. Furthermore, the property
subsidiary record must agree with the general ledger property accounts.

The merger in July 2000 by three different legal service providers, which
established MPLS, resulted in multiple sets of property records. The IT
department recorded computer-related equipment in one data base but the Fiscal
department failed to consolidate the detailed equipment records from these
programs. It was unclear why the property records were not consolidated and
reconciled.

Properly maintained property records help ensure that fixed asset purchases are
fully accounted for and safeguarded, and depreciation amounts are supported.

Recommendation 1. The Executive Director should ensure that a subsidiary
property record is prepared for all fixed assets purchased or received through
donation.   The record should contain all information required by LSC’s
Fundamental Criteria.

Grantee Comments.

       After receiving this recommendation we examined our records and
       the Fundamental Criteria of the LSC Accounting Guide, our
       property records and our general ledger property accounts and
       found subsidiary property records exist for all fixed assets that were
       purchased. Further review shows that information for these assets
       is recorded as required by the Fundamental Criteria of the LSC
       Accounting Guide.          Regarding the list that our Information
       Technology Department maintains, we are in the process of
       integrating it as part of the overall property records that exist for the



                                          4
      entire organization. Finally, we are in the process of doing an
      inventory of all donated property, and will develop a listing of this
      property as required by the LSC Accounting Guide. We expect to
      have both these tasks completed by September 30, 2011.

OIG Evaluation of Grantee Comments. Management actions taken and
planned are responsive to the recommendation.                    However,
Recommendation 1 will remain open until all stated grantee management
actions are completed and the OIG is notified of such in writing. Grantee
management stated in its comments that after “receiving this
recommendation,” a review of its records for purchased fixed assets
disclosed that all information required by LSC’s Accounting Guide was
recorded. This was not the case at the time of audit fieldwork. Based on
information provided by management at the time of fieldwork, subsidiary
property records for purchased fix assets did not contain all required
information.


2.    Derivative Income

A portion of MPLS’s office space in Gettysburg, PA, which is leased for $1,000
per month using LSC funds, has been subleased to Regional Housing Legal
Services (RHLS), a nonprofit law firm, since July 2007 for $100 per month, plus
7.5% of utilities (gas, electric and trash). However, MPLS records the income
from the rent and the RHLS’s share of utilities as reductions of MPLS’s rent
expense and the utilities accounts. Thus, MPLS has not reported the receipts
from RHLS as derivative income in the audited financial statements. As of
April 30, 2010, the unreported derivative income was estimated at $4,125 for the
previous 34 months.

LSC’s Accounting Guide, Section 2-2.7, Derivative Income states that

      LSC considers derivative income as any additional income
      derived from an LSC grant, such as interest income, rent or the
      like, or that portion of any reimbursement or recovery of direct
      payments to attorneys, proceeds from the sale of assets, or
      other compensation or income attributable to any Corporation
      grant. LSC derivative income must be reported in the same
      class of net assets that includes the LSC grant.

MPLS did not provide a specific reason as to why the derivative income from the
rental of the subleased office was not properly recorded. Properly recording
derivative income ensures that LSC laws, restrictions, and regulations are fully
applied to all related funds.

Recommendation 2. The Executive Director should ensure that MPLS properly
records income derived from rental of subleased office space.


                                       5
Grantee Comments.

      When this issue was raised, the CFO changed the way the income
      from this sublease was recorded to comply with the regulations in
      the LSC Accounting Guide. This will be verified upon review of the
      finalized 2010/2011 audit of the IPA a copy of which we are
      required to send to your office.

OIG Evaluation of Grantee Comments.          Management actions taken are
responsive to the recommendation. Therefore, Recommendation 2 is closed.


3.     Entity-wide Disaster Recovery Plan

MPLS does not have in place an entity-wide disaster recovery plan as reported
by its external auditors in August 2004 in a letter to management. The Executive
Director stated that MPLS has drafted a plan which was completed sometime in
the spring of 2009, but it has not yet been submitted to the Board of Directors for
approval. The Executive Director did not specify an exact date for its submission
and implementation.

Delivery of continuous services is vital in accomplishing the grantee’s mission.
An effective disaster recovery plan can assist MPLS in facing an emergency,
thereby minimizing the risk of disruption of legal services to the poor and
protecting the assets necessary to provide those services.

Recommendation 3. The Executive Director should finalize and present to the
Board of Directors for approval an entity-wide disaster recovery plan. Once
approved, the Executive Director should implement the plan.

Grantee Comments.

      When this issue was raised during the OIG exit interview, it was
      explained that the Program had a draft entity-wide Disaster
      Recovery Plan which needed to be updated (due to Office
      relocations) so that it could be sent to the Board for approval. The
      Plan has been updated and it will be voted on by the MidPenn
      Board at its next regularly scheduled meeting on July 21, 2011.

OIG Evaluation of Grantee Comments. The actions taken are responsive to the
recommendation. Management has confirmed that the MPLS Board at its
July 21, 2011 meeting reviewed and approved the entity-wide disaster plan.
Therefore, Recommendation 3 is closed.




                                        6
4.    Annotating Statements and Invoices as Paid

Of the 171 transactions tested, all the statements, invoices and other supporting
documentation that were approved for payment were not marked paid or
otherwise cancelled. The Accounting Guide (1997 Edition), Chapter 3-5.4, Cash
Disbursements on Control over Duplicate Payments indicates that documents
should be marked paid or otherwise canceled to avoid duplicate payment. The
check number and pay date should also be noted on the invoice or other
supporting documentation.

MPLS did not provide a specific reason as to why documentation approved for
payment was not marked paid or otherwise cancelled. While we did not note any
duplicate payments in our sample, properly annotating documents as paid will
help ensure that duplicate payments are not made in the future.

Recommendation 4. The Executive Director should ensure procedures are in
place to properly annotate documentation supporting disbursements as paid or
otherwise cancelled to avoid duplicate payments.

Grantee Comments.

      When this issue was raised during the Monitoring visit in May 2010,
      the CFO (who had only been on the job since February 2010) noted
      that she had identified this as an issue and discussed with the
      monitors her plans to have this procedure become standard
      practice in the fiscal department. The practice of marking paid
      invoices as “paid” was subsequently instituted and has also been
      made a part of the Program’s Fiscal Policies.

OIG Evaluation of Grantee Comments.          Management actions taken are
responsive to the recommendation. Therefore, Recommendation 4 is closed.




                                       7
                                                                               APPENDIX I
                               &1
                       MidPenn Legal Services
                                          AJl1l ini ~{ ra t io T1
                         2 13-A Ni.lIth Fron t Street. HOiTisburg. PA 17 101
                             Phone 7 17-234-04Q2 FAX 7 17-234-0496
                                        www. mi dpcnn.org

                                        June 30, 2011

Ronald D. Merryman
Assistant Inspector General for Audit
3333 K Street, NW 3rd Floor
Washington, DC 20007-3558
                                              Re: MidPenn Legal Services
                                              Recipient Number: 339040


Dear Mr. Merryman:

This letter is written in response to the draft Office of Inspector General (OIG) report
received at MidPenn Legal Services on June 3, 2011 . As requested, below you will find
MidPenn's response to the recommendations in your June 2, 2011, letter.


Property Records for Fixed Assets

After receiving this recommendation we examined our records and the Fundamental
Criteria of the LSC Accounting Guide, our property records and our general ledger
property accounts and found subsidiary property records exist for all fixed assets that
were purchased. Further review shows that information for these assets is recorded as
required by the Fundamental Criteria of the LSC Accounting Guide. Regarding the list
that the our Information Technology Department maintains, we are in the process of
integrating it as part of the overall property records that exist for the entire
organization. Finally, we are in the process of doing an inventory of all donated
property, and will develop a listing of this property as required by the LSC Accounting
Guide. We expect to have both these tasks completed by September 30, 2011.


Derivative Income

When this issue was raised, the CFO changed the way the income from this sublease
was recorded to comply with the regulations in the LSC Accounting Guide. This will be
verified upon review of the finalized 2010/2011 audit of the IPA a copy of which we are
required to send to your office.




                                         u!LLSC
  Entity-wide Disaster Recovery Plan

  When this issue was raised during the DIG exit interview, it was explained that the
  Program had a draft entity-wide Disaster Recovery Plan which needed to be updated
  (due to office relocations) so that it could be sent to the Board for approval. The Plan
  has been updated and it will be voted on by the MidPenn Board at its next regularly
  scheduled meeting on July 21, 2011.


  Annotating Statements and Invoices as paid

  When this issue was raised during the Monitoring visit in May 2010, the CFO (who had
  only been on the job since February 2010) noted that she had identified this as an issue
  and discussed with the monitors her plans to have this procedure become standard
  practice in the fiscal department. The practice of marking paid invoices as "paid" was
  subsequently instituted and has also been made a part of the Program's Fiscal Policies.


  If you have questions about this letter, please feel free to contact me.

 !l~CereIY,

~~-!!HU-4J
  Executive Director


  Cc: Anthony Ramirez, Audit Team Leader
